           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  CHILDHOOD DISABILITY BENEFICIARIES
  WITH AN INCORRECT WAITING PERIOD


     December 2012    A-09-11-21158




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
MEMORANDUM


Date:      December 20, 2012                                                               Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Childhood Disability Beneficiaries with an Incorrect Waiting Period (A-09-11-21158)


           OBJECTIVE
           Our objective was to determine whether the Social Security Administration (SSA)
           awarded childhood disability benefits based on an incorrect waiting period.

           BACKGROUND

           SSA administers the Old-Age, Survivors and Disability Insurance (OASDI) program
           under Title II of the Social Security Act. 1 This program provides monthly benefits to
           retired and disabled workers, including their dependents and survivors.

           Disabled children age 18 or older may be entitled to childhood disability benefits on a
           parent’s earnings record if they have a disability that began before they reached age 22
           and has lasted, or is expected to last, at least 12 consecutive months or result in death.
           A child must be unmarried and meet the same definition of disability as a disabled
           worker. 2 Disabled workers must wait 5 full calendar months to be awarded disability
           benefits. However, disabled children do not have to wait 5 months. 3 As a result,
           disabled children may receive benefits in the 1st month after their disability began rather
           than in the 6th month. 4 In addition, a childhood disability beneficiary is entitled to
           Medicare coverage after 24 months of entitlement as a disabled child. 5
           Disability determination services (DDS) in each State or other responsible jurisdiction
           perform disability determinations in accordance with Federal law and underlying

           1
               Social Security Act § 201 et seq., 42 U.S.C. § 401 et seq.
           2
             Social Security Act § 202(d), 42 U.S.C. § 402(d); see also SSA, POMS, DI 10115.001
           (January 22, 2007).
           3
               SSA, POMS, DI 10115.001 (January 22, 2007) and DI 10115.025 (January 18, 2007).
           4
               Social Security Act §§ 202(d) and 223(a), 42 U.S.C. §§ 402(d) and 423(a).
           5
               Social Security Act § 226, 42 U.S.C. § 426.
Page 2 - The Commissioner


regulations. 6 If the DDS determines the claimant is disabled, SSA verifies nonmedical
eligibility requirements (such as age, employment, marital status, citizenship, residency,
and Social Security coverage), computes the benefit amount, and pays benefits. 7 SSA
determines the initial date of entitlement to benefits and the length of the waiting period.

According to SSA’s Master Beneficiary Record, as of November 2010, 6,340 disabled
children in current pay status may have incorrectly served a 5-month waiting period.
About two-thirds of these beneficiaries had a mental disorder, and one-third had a
physical or other impairment. From this population, we selected a random sample of
200 beneficiaries for review.

RESULTS OF REVIEW
SSA needs to improve its controls to ensure childhood disability beneficiaries do
not serve a 5-month waiting period before entitlement to disability benefits. We found
that SSA incorrectly applied a 5-month waiting period before childhood disability
beneficiaries became entitled to benefits. Based on our random sample, we estimate
that SSA

•     established an incorrect initial date of entitlement to disability benefits for
      5,104 beneficiaries,

•     underpaid 3,202 of the 5,104 beneficiaries about $7.3 million in childhood disability
      benefits, and

•     established an incorrect initial date of entitlement to Medicare for 4,977 of the
      5,104 beneficiaries. 8

We are 90-percent confident the number of beneficiaries with an incorrect initial date
of entitlement to disability benefits ranged from 4,780 to 5,384. We are also 90-percent
confident the number of underpaid beneficiaries ranged from 2,825 to 3,578, and
the amount of underpayments ranged from $6.2 to $8.5 million. In addition, we are
90-percent confident the number of beneficiaries with incorrect Medicare entitlement
dates ranged from 4,645 to 5,269 (see Appendix C).




6
 Social Security Act §§ 221 and 1614; 42 U.S.C. §§ 421 and 1382c; see also 20 C.F.R. §§ 404.1601
et seq. and 416.1001 et seq.
7
    SSA, POMS, DI 11010.115 (August 8, 2008) and DI 12548.030 (July 2, 2007).
8
 The number of beneficiaries with an incorrect date of entitlement to childhood disability benefits and
Medicare is not mutually exclusive.
Page 3 - The Commissioner


Generally, these beneficiaries were entitled to disability benefits and Medicare coverage
5 months sooner than the date SSA established.

Of the 200 childhood disability beneficiaries in our sample, we found that SSA
incorrectly applied a 5-month waiting period for 161 (80.5 percent) disabled children.
As a result, SSA established an incorrect date of entitlement to disability benefits for
all 161 beneficiaries. Of these, SSA underpaid $231,329 to 101 beneficiaries9 and
established an incorrect date of entitlement to Medicare for 157 beneficiaries. SSA
correctly established the 39 remaining beneficiaries’ dates of entitlement to disability
benefits and Medicare. The following chart summarizes the results of our review.



              Initial Entitlement to Childhood Disability Beneficiaries
                                Based on a Random Sample of 200 Beneficiaries



       Incorrectly Entitled -                                                  Incorrectly Entitled -
         Payment Errors                                                         No Payment Errors
             (50.5%)                                                                  (30%)




                                                                                 Correctly Entitled
                                                                                     (19.5%)




INCORRECT DATE OF ENTITLEMENT TO CHILDHOOD DISABILITY BENEFITS

SSA established an incorrect date of entitlement to benefits for 161 (80.5 percent) of the
200 childhood disability beneficiaries in our sample. This occurred because SSA had
not established effective controls to preclude disabled children from serving a 5-month
waiting period.




9
  The remaining 60 beneficiaries were correctly paid because they had previously received other Social
Security benefits during the 5-month waiting period or the additional benefits payable must be used to
reduce overpayments made to other beneficiaries in the same family.
Page 4 - The Commissioner

The Social Security Act requires that beneficiaries wait 5 full calendar months before
they are awarded disability benefits. 10 This period permits most temporary disabilities to
be corrected and individuals to show signs of probable recovery. 11 Disabled children
are exempt from any waiting period and are entitled to benefits the month after their
disability begins. 12

Of the 161 beneficiaries with an incorrect date of entitlement to benefits,

•     108 were entitled to childhood disability benefits under their parents’ earnings
      records,

•     37 were dually entitled to Title II disability benefits based on their own earnings and
      to childhood disability benefits under their parents’ earnings records, and

•     16 were entitled to disability under the Supplemental Security Income (SSI) program
      and to childhood disability benefits under their parents’ earnings records.

   Childhood Disability Beneficiaries – We found that 108 beneficiaries were entitled to
benefits as a disabled child on their parents’ earnings records. These children were
disabled before age 22 and should have received benefits immediately or at age 18.
Nevertheless, SSA applied a 5-month waiting period before they became entitled to
benefits.

For example, in December 2005, a child beneficiary applied for disability benefits. The
beneficiary had been receiving child benefits since August 2005. In December 2005,
the beneficiary attained age 18, and SSA terminated child benefits. The DDS
determined the beneficiary had affective mood disorders at age 17 and established a
disability onset date of November 2005. We found that SSA did not entitle the child to
disability benefits until May 2006. However, disabled children do not have to serve a
5-month waiting period. As a result, SSA underpaid the beneficiary $6,620 in childhood
disability benefits.

   Dually Entitled Beneficiaries – We found that 37 beneficiaries were dually entitled to
disability benefits on their own earnings records and as a disabled child on their parents’
records. Although the benefits on their own earnings records were subject to a 5-month
waiting period, the disabled child’s benefits were not. 13 SSA employees incorrectly
applied the 5-month waiting period to both types of benefits.




10
     Social Security Act §§ 223(a) and (c)(2), 42 U.S.C. §§ 423(a) and (c)(2).
11
     SSA, POMS, DI 10105.070 (March 2, 2011).
12
     Social Security Act § 202(d), 42 U.S.C. § 402(d).
13
     SSA, POMS, DI 10115.001 (January 22, 2007) and DI 10115.025 (January 18, 2007).
Page 5 - The Commissioner


For example, in April 2008, a child beneficiary applied for benefits as a disabled worker
on his earnings record and as a disabled child on his father’s record. The DDS
determined the beneficiary had mental disorders at age 20 and established a disability
onset date of June 2007. We found that SSA applied a 5-month waiting period to
both types of benefits and established a date of initial entitlement of December 2007.
However, the beneficiary should have been entitled to childhood disability benefits
5 months sooner in July 2007. As a result, SSA underpaid the beneficiary $4,360 in
childhood disability benefits.

    Supplemental Security Income Recipients – We found that 16 beneficiaries were
entitled to disability benefits under both the OASDI and SSI programs. SSA policy
states that an application for benefits under the SSI program is considered an
application for benefits under the OASDI program. 14 For these beneficiaries, SSA
employees initially processed the SSI application only and incorrectly applied a
5-month waiting period when they subsequently processed the application for childhood
disability benefits.

For example, in March 2002, a child beneficiary applied for SSI payments. The DDS
determined the beneficiary had mental disorders at age 18 and established a disability
onset date of April 2001. SSA disbursed SSI payments beginning in April 2002. In
July 2002, the beneficiary applied for childhood disability benefits. SSA applied a
5-month waiting period and paid childhood disability benefits beginning in October 2001.
The date of initial entitlement should have been May 2001. As a result, SSA underpaid
the beneficiary $2,750 in childhood disability benefits.

INCORRECT DATE OF ENTITLEMENT TO MEDICARE

SSA established an incorrect date of entitlement to Medicare for 157 (78.5 percent)
of the 200 childhood disability beneficiaries in our sample. Because SSA applied
a 5-month waiting period, it did not establish a correct initial date of entitlement to
disability benefits. As a result, these beneficiaries should have been entitled to
Medicare 5 months sooner than the date SSA established. 15

Medicare provides hospital and medical insurance coverage to individuals age 65 and
older and disabled individuals under age 65. 16 A childhood disability beneficiary is
entitled to health insurance benefits (Medicare, Part A) and can elect supplementary
medical insurance benefits (Medicare, Part B) after 24 months of entitlement as a
disabled child. 17



14
     SSA, POMS, SI 00601.035 (October 6, 2011).
15
     The average is 4.7 months and median is 5.
16
     SSA, POMS, HI 00801.001 (March 29, 2001) and HI 00805.001 (November 9, 2004).
17
     SSA, POMS, DI 11020.005 (July 29, 2008) and HI 00801.146 (July 6, 2004).
Page 6 - The Commissioner


For the 157 beneficiaries with an incorrect date of entitlement to Medicare, SSA
incorrectly applied a 5-month waiting period. After an incorrect date of entitlement to
disability is established, the Medicare eligibility date will also be incorrect because the
24-month period is based on the date of entitlement to disability benefits.

CONCLUSION AND RECOMMENDATIONS
SSA needs to improve its controls to ensure childhood disability beneficiaries do not
serve a 5-month waiting period before entitlement to disability benefits. We found
that SSA incorrectly applied a 5-month waiting period before childhood disability
beneficiaries became entitled to benefits. Based on a random sample of
200 beneficiaries in our population, 161 (80.5 percent) had an incorrect date of
entitlement to benefits. As a result, we estimate that SSA established an incorrect
initial date of entitlement to disability benefits for 5,104 beneficiaries. Of these, we
estimate that SSA (1) underpaid 3,202 beneficiaries about $7.3 million in childhood
disability benefits and (2) established an incorrect initial date of entitlement to Medicare
for 4,977 beneficiaries (see Appendix C). 18

We recommend that SSA:

1. Take appropriate corrective action for the 161 beneficiaries identified by our audit.

2. Evaluate the results of its corrective action for the 161 beneficiaries and determine
   whether it should review our population of 6,340 disabled children who may have
   incorrectly served a 5-month waiting period.

3. Evaluate the results of its corrective actions in Recommendations 1 and 2 and
   determine whether it should improve controls to ensure childhood disability benefits
   are awarded without a 5-month waiting period.

AGENCY COMMENTS
SSA agreed with all our recommendations. The Agency’s comments are included in
Appendix D.




                                                 Patrick P. O’Carroll, Jr.




18
 The number of beneficiaries with an incorrect date of entitlement to childhood disability benefits and
Medicare is not mutually exclusive.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Sampling Methodology and Results

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgment
                                                       Appendix A

Acronyms
C.F.R.   Code of Federal Regulations
DDS      Disability Determination Services
MBR      Master Beneficiary Record
OASDI    Old-Age, Survivors and Disability Insurance
OIG      Office of the Inspector General
POMS     Program Operations Manual System
SSA      Social Security Administration
SSI      Supplemental Security Income
U.S.C.   United States Code
                                                                       Appendix B

Scope and Methodology
Based on a data extract from the Social Security Administration’s (SSA) Master
Beneficiary Record (MBR), we identified a population of 6,340 disabled children in
current pay status who may have incorrectly served a 5-month waiting period as of
November 2010. These beneficiaries had a date of entitlement 6 months after their
disability onset date and their parents were either entitled to benefits or deceased.
From this population, we selected a random sample of 200 beneficiaries for review.

To accomplish our objective, we

•   reviewed the applicable sections of the Social Security Act, the United States Code,
    Federal regulations, SSA’s Program Operations Manual System, and other policy
    memorandums;

•   interviewed SSA employees from the San Francisco Regional Office and the Offices
    of the Chief Actuary and Public Services and Operations Support;

•   reviewed queries from SSA’s MBR, Modernized Claims System, Supplemental
    Security Record, and Modernized Supplemental Security Income Claims System;
    and

•   used SSA’s Interactive Computation Facility to determine the amount of benefits
    payable.

We determined the computer-processed data were sufficiently reliable for our intended
use. We conducted tests to determine the completeness and accuracy of the data.
These tests allowed us to assess the reliability of the data and achieve our audit
objective.

We performed audit work in Richmond, California, and Baltimore, Maryland, between
March and August 2012. The entity audited was the Office of Operations under the
Office of the Deputy Commissioner for Operations.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objective. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.
                                                                                Appendix C

Sampling Methodology and Results
From the Social Security Administration’s Master Beneficiary Record, we obtained a
data extract of 6,340 disabled children in current pay status who may have incorrectly
served a 5-month waiting period as of November 2010. These beneficiaries had a date
of entitlement 6 months after their disability onset date and their parents were either
entitled to benefits or deceased. We selected a random sample of 200 beneficiaries to
determine whether SSA awarded childhood disability benefits based on an incorrect
waiting period.

Based on our random sample, we determined that SSA established an incorrect date of
entitlement to disability benefits for 161 beneficiaries. As a result, SSA underpaid
$231,329 to 101 beneficiaries and established an incorrect date of entitlement to
Medicare for 157 beneficiaries.

Projecting these results to our population of 6,340 beneficiaries, we estimate that
SSA established an incorrect initial date of entitlement to disability benefits for
5,104 beneficiaries. Of these, we estimate that SSA (1) underpaid 3,202 beneficiaries
about $7.3 million in childhood disability benefits and (2) established an incorrect initial
date of entitlement to Medicare for 4,977 beneficiaries.

The following tables provide the details of our sample results and statistical projections.

                            Table C-1 – Population and Sample Size

               Description                                        Number of Beneficiaries
 Population Size                                                          6,340
 Sample Size                                                                200

 Table C-2 – Beneficiaries with Incorrect Date of Entitlement to Disability Benefits

                Description                                       Number of Beneficiaries
 Sample Results                                                             161
 Point Estimate                                                           5,104
 Projection - Lower Limit                                                 4,780
 Projection - Upper Limit                                                 5,384
Note: All statistical projections are at the 90-percent confidence level.




                                                     C-1
           Table C-3 – Beneficiaries Entitled to Additional Disability Benefits

                                                            Number of           Amount of
               Description                                 Beneficiaries      Underpayments
 Sample Results                                                 101              $231,329
 Point Estimate                                               3,202             $7,333,126
 Projection - Lower Limit                                     2,825             $6,207,840
 Projection - Upper Limit                                     3,578             $8,458,412
Note: All statistical projections are at the 90-percent confidence level.

       Table C-4 – Beneficiaries with Incorrect Date of Entitlement to Medicare

                Description                                       Number of Beneficiaries
 Sample Results                                                             157
 Point Estimate                                                           4,977
 Projection - Lower Limit                                                 4,645
 Projection - Upper Limit                                                 5,269
Note: All statistical projections are at the 90-percent confidence level.




                                                     C-2
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      December 6, 2012                                                        Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Childhood Disability Beneficiaries with an
           Incorrect Waiting Period” (A-09-11-21158)—INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Amy Thompson at (410) 966-0569.

           Attachment




                                                          D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“CHILDHOOD DISABILITY BENEFICIARIES WITH AN INCORRECT WAITING
PERIOD” (A-09-11-21158)

Recommendation 1

Take appropriate corrective action for the 161 beneficiaries identified by our audit.

Response

We agree.

Recommendation 2

Evaluate the results of its corrective action for the 161 beneficiaries and determine whether it
should review our population of 6,340 disabled children who may have incorrectly served a 5-
month waiting period.

Response

We agree.

Recommendation 3

Evaluate the result of its corrective actions in recommendation 1 and 2 and determine whether it
should improve controls to ensure childhood disability benefits are awarded without a 5-month
waiting period.

Response

We agree. We will review the results of Recommendation 1 and determine if we need improved
controls.




                                                D-2
                                                                       Appendix E

OIG Contacts and Staff Acknowledgment
OIG Contacts

   James J. Klein, Director, San Francisco Audit Division

   Jack H. Trudel, Audit Manager

Acknowledgment

In addition to those named above:

   Andrew Hanks, Program Analyst

For additional copies of this report, please visit our Website at http://oig.ssa.gov/
or contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-09-11-21158.
                        Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.

                                               Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.

                                         Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.

                           Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.

                                      Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.

                         Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
